No. 20-1129
In The

Supreme Court of the United States

SCOTT PHILLIP FLYNN, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.

PETITION FOR WRIT OF CERTIORARI

PROOF OF SERVICE

I, Ian M. Comisky, counsel of record for
Petitioner Scott Phillip Flynn, and a member of the
Bar of this Court, hereby certify that on the 7th day of
June, 2021, I caused to be served a copy of the Reply
Brief in Support of Petition for a Writ of Certiorari in
the above-referenced case upon counsel for
Respondents and the Solicitor General of the United

2
States, and Amicus, by electronic mail in accordance
with the November 13, 2020 Guidance Concerning
Clerk’s Office Operations of the Supreme Court :
Elizabeth B. Pelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Harry Sandick
Patterson Belknap Webb & Tyler, LLP
1133 Avenue of the Americas
New York, NY 10036
hsandick@pbwt.com

June 7, 2021

IAN M. COMISKY
Counsel of Record
PATRICK J. EGAN
FOX ROTHSCHILD LLP
2000 Market St., 20th Floor
Philadelphia, PA 19103
(215) 299-2000
icomisky@foxrothschild.com

